<html>
<title> - CHEMICAL ATTACK ON AMERICA: HOW VULNERABLE ARE WE?</title>
<body><pre>[Senate Hearing 109-62]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-62
 
           CHEMICAL ATTACK ON AMERICA: HOW VULNERABLE ARE WE?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 27, 2005

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
21-435                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                        Allison J. Boyd, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                   Holly A. Idelson, Minority Counsel
                      Amy B. Newhouse, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Stevens..............................................     6
    Senator Akaka................................................     6
    Senator Voinovich............................................     8
    Senator Lautenberg...........................................     9
    Senator Levin................................................    33
Prepared statement:
    Senator Pryor................................................    37

                               WITNESSES
                       Wednesday, April 27, 2005

Hon. Jon S. Corzine, a U.S. Senator from the State of New Jersey.    11
Hon. Carolyn W. Merritt, Chairman and Chief Executive Officer, 
  U.S. Chemical Safety and Hazard Investigation Board............    13
John B. Stephenson, Director, Natural Resources and Environment, 
  U.S. Government Accountability Office..........................    16
Richard A. Falkenrath, Ph.D., Visiting Fellow, Foreign Policy 
  Studies, The Brookings Institution.............................    18
Stephen E. Flynn, Ph.D., Jeane J. Kirkpatrick Senior Fellow for 
  National Security Studies, Council on Foreign Relations........    21

                     Alphabetical List of Witnesses

Corzine, Hon. Jon S.:
    Testimony....................................................    11
    Prepared statement...........................................    47
Falkenrath, Richard A., Ph.D.:
    Testimony....................................................    18
    Prepared statement...........................................    75
Flynn, Stephen E., Ph.D.:
    Testimony....................................................    21
    Prepared statement...........................................    98
Merritt, Hon. Carolyn W.:
    Testimony....................................................    13
    Prepared statement...........................................    53
Stephenson, John S.:
    Testimony....................................................    16
    Prepared statement...........................................    59

                                Appendix

Hon. James M. Inhofe, a U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................    38
Hon. Vito Fossella, a U.S. Representative from the State of New 
  York, prepared statement.......................................    45
Questions for the Record from Senator Akaka and responses from:
    Mr. Flynn....................................................   106
    Mr. Merritt..................................................   107
    Mr. Stephenson...............................................   109


           CHEMICAL ATTACK ON AMERICA: HOW VULNERABLE ARE WE?

                              ----------                              


                        WEDNESDAY APRIL 27, 2005

                                       U.S. Senate,
                           Committee on Homeland Security  
                                   and Governmental Affairs
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-562, Dirksen Senate Office Building, Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Stevens, Voinovich, Warner, 
Lieberman, Levin, Akaka, Lautenberg, and Pryor.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. The Committee will come to order. Good 
morning.
    Today this Committee begins a series of hearings on the 
security of our chemical industry and its vulnerability to 
terrorist attack. Our ultimate goal is to determine whether the 
risk of a terrorist attack on the chemical industry warrants a 
legislative solution, and if so, what that solution should 
entail.
    One of the most sobering lessons of September 11 was that 
terrorists will use the productive tools of our society against 
us as weapons. There were more than 5,000 commercial airliners 
ready to fly American skies that day. The terrorists only had 
to commandeer four to use as missiles to murder some 3,000 
people.
    The threat of a chemical attack takes two basic forms: 
first, causing a harmful release of chemicals from a facility, 
and second, the theft of chemicals from a facility for use at 
another time and place. According to a recent report by the 
Congressional Research Service, during the 1990's both domestic 
and international terrorists attempted many times to cause the 
release of chemicals from manufacturing or storage facilities.
    There is evidence that the second approach has been 
attempted as well. One of the 1993 World Trade Center bombers 
was employed as a chemical engineer. He used company stationery 
to order the chemical ingredients to make the bomb. In 
addition, testimony at the bombers' trial indicated that they 
had successfully stolen cyanide from a chemical plant and were 
planning to introduce it into the ventilation systems of office 
buildings.
    According to the EPA there are at least 15,000 facilities 
across the country that use, manufacture, or store large 
quantities of extremely hazardous chemicals. To us, those 
facilities are vital parts of our economy that create jobs and 
improve our lives. To our enemies, they are weapons waiting to 
be used against an unsuspecting population. And, like the 
airliners of September 11, it would take only a few, or even 
one, to cause a horrifying loss of life and enormous economic 
harm.
    The potential of productive chemicals to cause terrible 
harm was made clear in the early morning hours of December 3, 
1984, in Bhopal, India. The improper filling of a water tank at 
a plant that made pesticides led to the release of a cloud of 
poisonous gas that drifted across that city of some 850,000 
people. Within a few hours, thousands were dead, and hundreds 
of thousands were sickened.
    On another historical note, it was 90 years ago this month, 
in April 1915, that the first major chemical attacks were 
launched in World War I. The chemicals that caused so much 
death and horror on the battlefields of the Western Front were 
not the bizarre concoctions of diabolical scientists, but 
rather the useful tools of industry, such as chlorine and 
phosgene. The compound that formed mustard gas, the most 
dreaded chemical weapon of all, was being investigated 
elsewhere as a treatment for cancer.
    But we do not have to travel back nearly a century in time 
to see that terrorists have used chemicals as weapons. We know 
that Saddam Hussein used chemical weapons against both the 
Iranian people and his own citizens. It has also been reported 
that chemical trade publications have been found in al Qaeda 
hideouts.
    The Department of Homeland Security is assessing the 
potential for worst-case scenarios involving the release of 
hazardous chemicals in the United States. The findings thus far 
are alarming. The Department has identified 297 chemical 
facilities where a toxic release could potentially affect 
50,000 or more people. The EPA, which uses a different 
methodology, has numbers that are even more alarming. Nothing 
will ever diminish the loss that we experienced on September 
11, but the consequences of a chemical attack could be even 
greater, both in terms of the loss of life and the economic 
impact.
    A study released last month by the Government 
Accountability Office details the many challenges that remain 
in protecting our chemical infrastructure. The GAO found that 
there is no comprehensive Federal approach to chemical facility 
security. Federal regulations that have been enacted were done 
to help prevent and mitigate the accidental release of 
hazardous chemicals, but these were not designed to secure 
facilities against terrorist attacks. Hazardous chemicals raise 
important environmental safety issues, but it is time that we 
recognize our obligation to address the security implications 
as well.
    Today, we begin to lay the foundation for a national 
strategy addressing chemical security. In addition to 
describing what should be done to better protect our chemical 
industry from terrorism, our expert witnesses will provide 
valuable insight into how it should be done.
    Earlier this month, I accompanied Senator Joseph Lieberman 
as an observer of the TOPOFF 3 terrorism exercise in 
Connecticut. This test of our counterterrorism and emergency-
response capabilities simulated a chemical attack at a 
waterfront festival in New London, Connecticut, while a 
simultaneous biological attack was mounted in New Jersey.
    It was an enlightening and an alarming experience. The 
attack itself was decidedly low-tech and low cost. A car bomb 
detonated at a fairgrounds parking garage, spewed deadly 
chemicals, likely stolen or fraudulently obtained, over 
fairgoers. Had it been a real attack, there would have been 
hundreds dead and thousands sickened. The New London waterfront 
would have been contaminated, and the economy of the entire 
region would have been devastated.
    The first responders who participated in this exercise 
rushed to the scene and were tenacious in their efforts to aid 
the victims. Our efforts in Congress, working with the private 
sector and with the Administration to prevent such a chemical 
attack must be the same.
    Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thank you, Madam Chairman, for that 
excellent statement, and thank you for your leadership on this 
issue. You have identified this, I think, quite correctly, as a 
gap in our homeland security defenses, and I am confident that 
though this is a complex matter, that under your leadership we 
are going to get something done to protect the American people 
from the risk of chemical accidents in this session of 
Congress.
    Your opening statement, not surprisingly because we spend 
so much time together, so clearly mirrors what I wanted to say 
that I am just going to draw briefly from my statement and 
include the rest of it in the record.
    The first point is that we live in a society, in a world 
where we depend on a diverse and remarkable assortment of 
chemicals in our daily lives, from cleaning compounds to life-
saving medicines. Chemical plants, oil refineries, wastewater 
treatment plants and pharmaceutical companies all manufacture 
and store chemicals and pesticides in large quantities in 
thousands of places around our country, often near large 
population centers.
    The fact is, the consequences of an accident or an attack, 
which is what we are focused on here, are disastrous. I just 
quote briefly from EPA, Environmental Protection Agency, which 
says that there are at least 123 chemical facilities in the 
United States where an attack or an accident could endanger a 
million people. That is, at each of the 123 locations an attack 
could endanger a million people because they are so near 
concentrations of population. There are actually 3,000 chemical 
facilities in the country where an attack could endanger 10,000 
people. These are mega disasters that could occur.
    The Army Surgeon General issued a report saying as many as 
2.4 million people could be killed or injured in a terrorist 
attack against a toxic chemical plant in a densely populated 
area.
    I always hesitate to read these numbers because one does 
not want to create panic. On the other hand, they demonstrate--
from very independent dispassionate authorities--the risk here. 
I am not going to recite, but Senator Collins has told us we 
are on notice. There is ample evidence that terrorists have 
attempted to strike at chemical facilities and that they intend 
in the future to do that as well.
    The good news here, slightly encouraging, given the 
knowledge of the consequences of an attack and the intentions 
of terrorists to attempt to attack chemical facilities, is that 
some chemical companies are not waiting for Congress to tell 
them how to improve their security. That is the good news. I 
know that the Department of Homeland Security is working with 
the chemical industry on several security initiatives. In fact, 
the Maritime Transportation Security Act of 2002 and the 
Bioterrorism Act of 2002 legislated important measures to 
improve security at a number of chemical and water treatment 
facilities, and several States are moving toward better 
security in this area.
    But the fact remains this morning that millions and 
millions of Americans continue to be at risk from an attack on 
a chemical plant, and many facilities that use extremely 
hazardous chemicals are not covered by the patchwork of laws 
and regulations now in place.
    One of the witnesses that we are going to hear from today, 
Richard Falkenrath, former White House Deputy Homeland Security 
Adviser, told this Committee earlier this year that since 
September 11, ``We have essentially done nothing'' in this 
particular area, and that is an unacceptable reality.
    Our first witness is Senator Jon Corzine of New Jersey. He 
has been the Senate leader in this matter in attempting to 
protect the American people from risk of an attack by 
terrorists on a chemical facility or an accident there. He has 
worked diligently to move legislation through the Congress and 
a lot of us have supported him. But thus far to no avail.
    The Administration has voiced general support for 
legislation in the past, but actions speak louder than words, 
and thus far, it has not provided the leadership necessary to 
pass the legislation necessary to protect the American people.
    I know, Madam Chairman, that at a future hearing on this 
subject you intend to call representatives from the 
Administration, particularly the Department of Homeland 
Security, and I urge the Administration to commit to working 
with this Committee on a bipartisan basis to help us pass 
effective legislation during this session of Congress.
    I thank you. I thank Senator Corzine. I thank the witnesses 
who I am confident this morning will help us understand better 
both the gravity of the current situation with regard to 
chemical plants and facilities in this country, and how we can 
urgently work to craft solutions that will protect the American 
people.
    Thank you.
    [The prepared statement of Senator Lieberman follows:]

                PREPARED STATEMENT OF SENATOR LIEBERMAN

    Madam Chairman, thank you for holding this first of what we hope 
will be a series of hearings on a critical gap in our homeland 
security. Once again, you have demonstrated your willingness to roll up 
your sleeves and tackle the hard issues and chemical security is 
certainly one of the hard ones. But it is an area of such serious 
vulnerability that we can't be deterred by its complexities. I 
appreciate your leadership and, as always, I'm pleased to work with you 
and the other Members of this Committee to try to address this gaping 
hole in our homeland defense as expeditiously as possible.
    No one can doubt that the vast and diverse chemical industry is 
central to our way of life and to our economy. We rely on a multitude 
of chemical substances in our daily lives, from cleaning compounds, to 
life-saving medicines, to home heating oil. Chemical plants, oil 
refineries, waste water treatment plants, and pharmaceutical companies 
all manufacture and store industrial chemicals and pesticides in large 
quantities in thousands of locations throughout the country, often near 
larger population centers. If released into the atmosphere, many of 
these chemicals could kill or maim hundreds of thousands of people--
which makes them an all too inviting target for terrorists.
    The fact is, a chemical release from at least 123 plants scattered 
throughout the land could endanger more than a million people, 
according to the Environmental Protection Agency, and 3,000 facilities 
around the country could threaten 10,000 people. Furthermore, the Army 
Surgeon General has determined that as many as 2.4 million people could 
be killed or injured in a terrorist attack against a toxic chemical 
plant in a densely populated area. Even where chemical facilities are 
more remote, there is a danger terrorists could buy or steal lethal 
materials for use in strategically important or densely populated 
areas.
    Now, we have ample evidence that terrorists are working along these 
lines. The Congressional Research Service reports that during the 
1990's both international and domestic terrorists attempted to use 
explosives to release chemicals from manufacturing and storage 
facilities close to population centers. At least two of these incidents 
occurred in the United States. One of the 1993 World Trade Center 
bombers was employed as a chemical engineer and used company stationary 
to order chemicals for a bomb used in that attack. Those same 
terrorists stole cyanide from a chemical facility and were training to 
introduce it into the ventilation systems of office buildings. In a 
2002 report, the Justice Department described the threat posed by 
terrorists to chemical facilities as ``both real and credible'' for the 
foreseeable future. And, it has been reported that U.S. troops found 
chemical trade publications in Al Qaeda camps in Afghanistan.
    It doesn't take much imagination to picture the pain terrorists 
could inflict by attacking a chemical facility. Two decades later, the 
Bhopal horror is still fresh in our minds. At least 4,000 people were 
killed and an estimated 400,000 injured from the release of a toxic gas 
cloud from a chemical plant in central India in 1984. More recently, 
when a train recently derailed in South Carolina and ruptured a 
chlorine gas tanker car, 10 people were killed by the lethal fumes 
which, according to EPA, affected an area two miles downwind from the 
derailment. This was not a worst-case event since the gas release was 
not instantaneous, but occurred over several days. If that had been an 
intentional strike on a chlorine gas facility in a dense area, the 
death toll could have been staggering. Indeed, the experts continually 
tell us that the casualties of the September 11 attacks could pale by 
comparison to an attack on a chemical facility in a densely populated 
area.
    Given our knowledge of the terrorists' desire to stage deadly 
chemical attacks, some of the more responsible companies aren't waiting 
for Congress to tell them how to improve their security. I know the 
Department of Homeland Security is working with industry on several 
security initiatives. The Maritime Transportation Security Act of 2002 
and the Bioterrorism Act of 2002 legislated important measures to 
improve security at a number of chemical and water treatment 
facilities. And several states are on the road to better chemical 
security.
    But millions more Americans continue to be at risk, and many 
facilities that use extremely hazardous chemicals are not covered by 
the patchwork of laws and regulations now in place. When the lives and 
livelihoods of so many Americans are at stake, relying on voluntary 
initiatives by the chemical industry to adequately protect us simply is 
not enough.
    So, how much progress has the government made to address this 
threat? Richard Falkenrath, former White House deputy homeland security 
adviser, whom we will hear from today, has told this Committee that 
since September 11 ``we have essentially done nothing''. That, clearly, 
is a standard we cannot accept.
    Senator Corzine--whose testimony I eagerly await this morning--has 
worked diligently to move legislation through the Congress, and I 
supported his efforts last session. Unfortunately, the status quo has 
proven unmovable so far. The Administration has voiced support for 
legislation in the past, but actions speak louder than words--and thus 
far, it has not provided the leadership necessary to achieve it.
    I look forward to hearing DHS's views at a future hearing and I 
hope the Administration will commit to working with us to pass 
effective legislation.
    I'd like to thank the witnesses here today for sharing their 
expertise with us. You can help us better understand the gravity of the 
situation that confronts us, and provide guidance as we work to craft 
solutions.
    Thank you again, Madam Chairman, for providing your unique brand of 
leadership on yet another issue central to the security of millions of 
Americans.

    Chairman Collins. Thank you. Senator Stevens.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Madam Chairman, I am only going to be here 
a few minutes. I have another hearing I am going to chair. I 
stopped by to commend you for undertaking a very difficult and 
complicated task.
    Several years ago I monitored an international meeting in 
Geneva that took place for several weeks of trying to determine 
how to control the international movement of chemical and 
biological substances that could be used for weaponry, and 
those of us who work primarily here in the Senate on defense 
matters are quite concerned, as you know, about the possibility 
that we might face chemical and biological weapons used by 
terrorists. So I do know from past inquiries into the subject, 
it would be a very difficult task to get a bill passed that 
will do what you seek to do, but I intend to work with you, and 
I again encourage Senator Corzine and all of those concerned 
with us, to work together on a bipartisan basis and try to do 
our best to see if we can take the steps that is necessary to 
get more information about these substances that could be used 
as weaponry. Thank you.
    Chairman Collins. Thank you. Senator Akaka.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. I would 
like to commend you for holding a hearing with distinguished 
witnesses on a critical topic.
    I want to welcome particularly our colleague from New 
Jersey, Jon Corzine, to this Committee, and also our 
distinguished witnesses. I appreciate you sharing your 
expertise with our Committee today.
    Securing the Nation's critical infrastructure while 
fostering the free flow of commerce upon which the United 
States relies is a considerable challenge. In no sector is the 
need to attain this balance more pressing than in the chemical 
industry.
    According to the EPA there are 123 chemical plants located 
throughout the Nation that could each potentially expose more 
than a million people if a chemical release occurred.
    In 2003, the Administration produced the National Strategy 
for the Physical Protection of Critical Infrastructures and Key 
Assets, which noted that, ``There is currently no clear 
unambiguous legal or regulatory authority at the Federal level 
to help ensure comprehensive uniform security standards for 
chemical facilities.''
    The strategy directed DHS and the EPA to work with Congress 
to enact legislation to require certain chemical facilities, 
particularly those that maintain large quantities of hazardous 
chemicals in close proximity to population centers, to 
undertake vulnerability assessments and take reasonable steps 
to reduce the vulnerabilities identified.
    To date no legislation has been enacted because Congress 
cannot reach a consensus on how strict the regulation should 
be. Securing chemicals is done mostly by industry on a 
voluntary basis, and the only statutes regulating the chemical 
sector are the Maritime Transportation Security Act, which 
covers facilities near ports, and the Bioterrorism Act, which 
covers the water sector. A large portion of the Nation's 
chemical industry is not subject to security regulations.
    As with any industry, there is debate on how to balance 
commerce and security. Our intent is not to cripple industry, 
which could hurt the economy or reduce jobs, but to ensure 
Americans are adequately protected from an accidental or 
intentional chemical release. We must also ask how increased 
government regulation will affect industrial competitiveness.
    Some chemical facilities that adhere to the industry 
voluntary security code have argued that they are at a 
disadvantage compared to those facilities that do not 
voluntarily increase security because they are spending 
millions on this added expense.
    Madam Chairman, I welcome this opportunity to further 
explore how we can better secure the chemical industry and 
minimize risk to the American people. I look forward to the 
testimony of witnesses and to working on this problem in the 
future. I ask that my full statement be included in the record.
    Chairman Collins. Without objection.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA

    Thank you Madam Chairman, I would like to commend you on holding a 
hearing on this critical topic. I welcome our distinguished witnesses 
and appreciate them sharing their expertise with our Committee today.
    Securing the Nation's critical infrastructure while fostering the 
free flow of commerce upon which the United States relies is a 
considerable challenge. In no sector is the need to attain this balance 
more pressing than in the chemical industry.
    The accidental release of methyl isocyanate from a chemical plant 
in India in 1984, and the thousands of lives lost in the process 
demonstrates the lethality of industrial chemicals. Intelligence 
reports tell us that this is a lesson terrorist groups have taken to 
heart. In May 1995, a Japanese cult released Sarin on five subway 
trains in downtown Tokyo. And according to a February 2004 Government 
Accountability Office (GAO) report, ``experts agree that chemical 
facilities present an attractive target for terrorists intent on 
causing massive damage.'' In fact, 20 of the terrorist attacks 
attempted over the past decade involved a chemical agent.
    Accoridng to the Environmental Protection Agency (EPA), there are 
123 chemical plants located throughout the Nation that could each 
potentially expose more than a million people if a chemical release 
occurred.
    In 2003, the Administration issued ``The National Strategy for the 
Physical Protection of Critical Infrastructures and Key Assets'' which 
noted that ``there is currently no clear, unambiguous legal or 
regulatory authority at the Federal level to help ensure comprehensive, 
uniform security standards for chemical facilities.'' The Strategy 
directed the Department of Homeland Security (DHS) and the EPA to work 
with Congress to enact legislation to require certain chemical 
facilities, particularly those that maintain large quantities of 
hazardous chemicals in close proximity to population centers, to 
undertake vulnerability assessments and take reasonable steps to reduce 
the vulnerabilities identified. To date, no legislation has been 
enacted.
    Securing chemicals is done mostly by industry on a voluntary basis. 
The only statutes regulating the chemical sector are the Maritime 
Transportation Security Act (P.L. 107-295), which covers facilities 
near seaports, and the Bioterrorism Act (P.L. 107-188), which covers 
the water sector. A large portion of the Nation's chemical industry is 
not subject to security regulations.
    One of the issues we will discuss today is whether self-regulation 
of the chemical sector is sufficient. While the chemical industry has 
come together to self-regulate since September 11, only a little over 
half of the 4,000 chemical manufacturing facilities reportedly adhere 
to the voluntary security standards. According to a March 2005 GAO 
report, the regulated chemical facilities GAO visited achieved a higher 
level of security than the unregulated facilities.
    As with any industry, there is debate on how to balance commerce 
and security. Our intent is not to cripple any single industry which 
could hurt the economy or reduce jobs, but to ensure Americans are 
adequately protected from an accidental or intentional chemical 
release.
    A good example of this debate is the legal battle the District of 
Columbia is currently engaged in with CSX Transportation, a rail 
transit company, regarding the District's recent decision to ban trains 
carrying hazardous materials from traveling within 2.2 miles of the 
Capitol.
    We must also ask how increased government regulation will affect 
industrial competitiveness. Some chemical facilities that adhere to the 
industry voluntary security code have argued that they are at a 
disadvantage compared to those facilities that do not voluntarily 
increase security because they are spending millions on this added 
expense.
    Madam Chairman, I welcome this opportunity to further explore how 
we can better secure the chemical industry and minimize risk to the 
American people. I look forward to the testimony of our witnesses.

    Chairman Collins. Thank you, Senator Akaka. Senator 
Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Madam Chairman, for holding 
this hearing today.
    I also want to thank each of the witnesses for joining us 
and sharing your expertise.
    Chemical security is of critical importance to our homeland 
security. The chemical industry is a major part of our Nation's 
economic infrastructure and vitality. The chemical industry 
plays a key role in our high quality of life, whether it be 
crop production, temperature control, water chlorinization, 
household cleaners or life-saving medications.
    I would like to begin by acknowledging the work that the 
chemical industry has done to self-regulate in the absence of 
Federal legislation. I share the same thanks as other Members 
of this Committee. The American Chemistry Council has been a 
leader in their voluntary efforts to enhance security at 
chemical facilities. I applaud the industry's efforts to work 
toward uniformity and consistency in national standards for 
security.
    But we must be mindful that regulation does not place the 
industry at a competitive disadvantage. In Ohio the chemical 
industry directly employs almost 50,000 people. Each one of 
these jobs creates an additional 6.2 jobs. The chemical 
industry is already experiencing economic hardships as a result 
of high natural gas costs. As a nation, we have gone from a net 
exporter of chemicals to a net importer.
    Though it is clear that a Federal role is necessary to meet 
today's security concerns, any Federal action should adhere to 
a comprehensive cost benefit analysis.
    The issue of chemical manufacturing security has been 
before us for some time. I have been involved in this debate 
since early 2002 when it was before the Environment and Public 
Works Committee.
    In December 2003, chemical security regulation was moved 
from the EPA and given to DHS, and it is now a matter for our 
Committee. Any legislation to enhance chemical facility 
security should be sharply focused on prevention and 
consequence management of a potential terrorist attack. Federal 
action to address chemical vulnerabilities must not be burdened 
with extraneous issues.
    Additionally, we must be attentive to requirements that 
would compromise the security of the various facilities that we 
are working to protect. For instance, specific chemical 
facility vulnerabilities must be guarded from unnecessary 
public disclosure. Only responsible government authorities need 
to have access to such information. Most people are not aware 
that the Federal Government already mandates disclosure by 
chemical facilities of the kinds of chemicals they have on 
their premises requires that they have developed inspections to 
ensure that safety measures and a strategy to respond are in 
place in the event of an accident.
    I would suggest, Madam Chairman, that the Committee have a 
closed session with the chemical industry where they can share 
candidly what they are now doing in terms of security and how 
legislation can be enhanced to set standards to which the 
industry must adhere.
    I mention this because we addressed the security of nuclear 
facilities before the EPW Committee. There were all kinds of 
accusations being made about the level of security at our 
nuclear facilities. It was suggested we have a closed session. 
It was interesting. All but one of the members who had raised 
concerns had their concerns responded to. So it might be a good 
idea to consider closed-door hearings at a later date. Thank 
you.
    Chairman Collins. Thank you. Senator Lautenberg.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman, for calling 
this hearing and having the witnesses who are going to testify 
talk about the issue with their experiences.
    I am particularly pleased to see my colleague, Senator Jon 
Corzine, here. He needs no introduction, but he does need the 
thanks of the people in New Jersey for his persistence in 
trying to keep this subject alive, to try and keep those lives 
going in New Jersey where we have the most densely populated 
State in the country, and lots and lots of chemical facilities. 
People make their living working in these places and it helps 
our economy substantially.
    But when we look at South Kearny, New Jersey, where it is 
said that more than a million people could be killed if there 
was either an accident or an attack in that facility, and so it 
is throughout the State.
    To confirm something that took place, Madam Chairman, in an 
earlier meeting of this Committee when we discussed the risk 
criteria for homeland security grants--and I note there was an 
Associated Press report that Governor Kean and Lee Hamilton 
intend to hold hearings. They no longer have the commission, 
but they intend to hold hearings in June and July to give a 
report card to the structure of the intelligence program that 
we have that would tell us whether or not we are doing the 
right thing.
    And I had a chance meeting with Governor Kean last night 
when he insisted that the risk factor has to be the determinant 
about how grants are made.
    So, Madam Chairman, I ask that my full statement be 
included in the record, and I would hope, since I heard Senator 
Lieberman suggest that we hold hearings in the future, that we 
would have people from EPA as well as Homeland Security with us 
to give us their insight into what the problems are and how we 
might solve them. Thank you very much, Madam Chairman.
    [The prepared statement of Senator Lautenberg follows:]

                PREPARED STATEMENT OF SENATOR LAUTENBERG

    Mr. Chairman, thank you for convening this hearing on this critical 
topic.
    As you know, I took a brief sabbatical from the Senate several 
years ago.
    One of the last bills I introduced before I left was a measure to 
increase security at chemical plants in our country.
    I was concerned that our chemical plants were vulnerable to an 
attack by terrorists that could kill thousands of Americans. But few 
shared my concern at that time, and I wasn't able to pass the bill.
    After I left the Senate at the beginning of 2001, my colleague 
Senator Corzine took up the cause of trying to make chemical plants 
less vulnerable to terrorists.
    Today, in the wake of September 11, we are all aware that chemical 
facilities present an inviting target for terrorists.
    Unfortunately, we still haven't translated that awareness into 
action.
    The 9/11 Commission cautioned that we must not focus so much on the 
last attack that we miss the next attempt to strike our country.
    I'm afraid we have failed to absorb that lesson as well as we 
should.
    And chemical plant security is one of the most glaring examples of 
that failure.
    There are about 15,000 chemical facilities in the country. More 
than half of them are in locations where an attack could kill more than 
one thousand people.
    The most vulnerable area is around South Kearney, New Jersey. An 
attack on a chlorine facility there would have the potential to kill or 
injure as many as 12 million people.
    Mr. Chairman, the attacks of September 11 were devastating. My 
state lost 700 of our friends, neighbors and loved ones that day. We 
all hope that we never see the like of it again.
    But the fact is, a terrorist attack on a chemical facility could be 
even worse.
    And by ignoring the threat, we might be inviting such an attack, 
because terrorism experts say our enemies like to focus on poorly 
security ``soft'' targets.
    In other words, we won't win the war on terror by fighting the 
previous battle.
    I thank all the witnesses who are with us today, and I look forward 
to hearing their views on this crucial issue.

    Chairman Collins. Thank you, Senator.
    I am now pleased to welcome our first witness. Before doing 
so, I want to note that Senator Inhofe, who has also worked 
very hard on this issue in the previous Congress, could not be 
with us today because he is managing the highway bill on the 
Senate floor. He has, however, submitted a written statement 
which will be included in the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Inhofe appears in the 
Appendix on page 38.
---------------------------------------------------------------------------
    I am now very pleased to welcome our distinguished 
colleagues, Senator Corzine of New Jersey. As my colleagues 
have mentioned, he has been a leader on this issue. He came to 
see me at the very beginning of this Congress to suggest that 
the Committee delve into this now that we have our new 
jurisdiction.
    I also want to note that his other colleague from New 
Jersey has long been active in this area as well.
    I noticed in doing some, or my staff noticed in doing some 
research that Senator Lautenberg had introduced legislation 
back in the 1990's on this issue, so I want to acknowledge his 
leadership as well.
    Senator Corzine, we are very pleased to have you here, and 
I would ask that you proceed with your statement.

 TESTIMONY OF HON. JON S. CORZINE,\1\ A U.S. SENATOR FROM THE 
                      STATE OF NEW JERSEY

    Senator Corzine. Thank you, Madam Chairman. I want to thank 
the Ranking Member and all the Members of the Committee for 
their interest and concern about an issue that I feel 
passionately about, and it is a real issue driven by concern to 
represent the people that live in my State. We are the most 
densely populated State in the Nation, and chemical plants are 
located among those large areas of population.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Corzine appears in the 
Appendix on page 47.
---------------------------------------------------------------------------
    I failed to get a good board presentation, but yesterday's 
USA Today had a picture of the plant that Senator Lautenberg 
talked about, who has worked on this issue so ably for a number 
of years. And you see a chlorine plant that is in the midst of 
what the EPA would say, 12 million people, would be exposed by 
an explosion, but it also is a plant that sits below a 
superhighway, where cars traverse over the top of it every 
single day. It is about a mile and a half from the Holland 
Tunnel.
    This is an example of vulnerability and a threat with large 
consequences, which I think require that those of us in public 
life speak out and try to protect the population that surrounds 
that area. We have 11 of these sites in New Jersey where a 
million people, according to the EPA statistics, and these are 
123 chemical facilities, as others have noted.
    The need is real, and as many of the Members of the 
Committee have pointed out, I think it is something that is 
self-evident. Experts have talked to you about it. I am 
extremely pleased at your witness list that will be testifying, 
which have spoken out on this issue, Mr. Falkenrath and Steve 
Flynn--and this goes back to Warren Rudman and Tom Ridge who 
have actually identified these issues as ones that need to be 
addressed in our homeland security strategy.
    I do not think we, as Senators, or as public officials, 
will be able to justify the reality of any attack on these 
facilities because we have been warned. This is not something 
that has not caught the eye of experts and people who have 
followed the issue through time. So I hope that the cause is 
recognized by reality.
    By the way, I do believe in this balance between industry 
and protecting our people, whether it is in New Jersey or 
across the country. We have 60,000 people who work in our 
pharmaceutical industry in New Jersey, and they do a terrific 
job of protecting their plants. I think the point that Senator 
Akaka makes about some people do and some people do not, and we 
do not know, I think is a dangerous concept to be understood.
    The facts are real. Oil refinery plant in Texas in March 
blew up, killed 14 people. Train derailment in Graniteville, 
South Carolina, where in a rural area nine people were killed 
from a chlorine explosion. Multiple deaths in a number of 
incidents in New Jersey through time, three killed this year in 
Perth Amboy, and the Chairman spoke about Bhopal.
    This is a real and present danger and I think we would be 
remiss if we did not develop a strategy. And we need to find a 
bipartisan consensus, and I certainly hope to work with the 
Chairman and Ranking Member and others to try to bring this to 
conclusion.
    I will just mention a few of the variables that I think 
this legislation should include, which are included in my more 
lengthy statement, which reflects a lot of the work that we 
have done over the years, in the 107th, 108th, and now in the 
109th Congress. Fortunately, the jurisdiction, well, not 
fortunately, but the reality of the jurisdiction is the 
Department of Homeland Security, appropriately in this 
Committee today. I think that is a major change from history.
    I do think we need both site regulation and consideration 
of alternative production approaches, not mandated, but 
alternative approaches to be examined, and where possible one 
could find ways to reduce risk of an attack occurred are 
sensible. We certainly had this case here in Washington where a 
sewage treatment plant, Blue Plains, moved from using chlorine 
and sulfur dioxide to sodium hypochlorite, and it was a very 
simple shift of how they operated in the facilities that made a 
big difference in the protection of all of our capital. The 
Committee can examine the specifics of that, and there are 
other cases around the country. This just happens to be one 
where chlorine could have infected the whole of our capital, 
including the White House and the Capitol. I think we need to 
look at alternative approaches. They need not be mandated but 
they need to be observed and made certain that they have been 
examined.
    We need to make sure that we assess whether industry 
guidelines, substantially equivalent guidelines are adequate 
and whether they are subject to the kind of review and 
monitoring that makes them successful, and would give the 
public certainty that real changes have been made, and they 
should, in my view, include these alternative approaches to 
production.
    Finally, I think it would be worthwhile, certainly 
worthwhile, that some provisions with regard to coordination to 
first responders in a local area be included in plans that are 
developed with regard to individual plants. Are there 
procedures put in place to respond to the kind of attack or 
accident that might occur, and are people prepared? Which does 
bring into consideration the kinds of things that Senator 
Voinovich talked about, dealing with information dissemination 
and making sure that we are not providing a blueprint for folks 
to attack. I think these are all important issues.
    There is another element of prioritization. My efforts on 
this effort have not been focused on ammonia plants in North 
Dakota. They have been focused on trying to prioritize those 
places where you have the greatest consequences if there is an 
explosion. So I think the tension that comes with that, I hope, 
will not set up a dynamic that will not allow for moving 
forward.
    This is an issue where I think lives are at stake. We would 
not tolerate this kind of site security oversight at our 
nuclear power plants. The public knows that. We have great 
concern to make sure there is a strong regulatory oversight 
function with regard to our maritime facilities that 
potentially pose risks. We should not allow it in these areas 
where literally hundreds of thousands of people could be 
exposed.
    I once again want to compliment the Chairman and the 
Committee for taking on this issue. I intend to be as fully 
bipartisan and cooperative. I think this is a need that the 
public deserves to have our Congress and the Administration act 
on, and anything that can make that happen will please me, and 
I will be happy to work with the Committee going forward.
    Thank you very much.
    Chairman Collins. Thank you very much, Senator. I know that 
you have a hectic schedule, and so I would suggest, unless any 
of my colleagues have a burning question to ask Senator 
Corzine, that we just submit any questions for the record so 
that he can resume his schedule.
    Senator Corzine. Thank you.
    Chairman Collins. Thank you. I would now like to call for 
our next panel of witnesses. The first witness that we will 
hear from today, after Senator Corzine, obviously, is Carolyn 
Merritt, the Chairman and CEO of the U.S. Chemical Safety and 
Hazard Investigation Board. Ms. Merritt brings an analytical 
chemistry background to her some 30 years of experience in 
process engineering and environmental and safety management. 
She has worked with a wide range of chemical processing and 
manufacturing industries, and we are very pleased to have her 
here today.
    Next we will hear from John Stephenson, the Director of 
Natural Resources and Environment Issues with the U.S. 
Government Accountability Office. We are very pleased to have 
him share his expertise with us today.
    The third panelist is Dr. Richard Falkenrath, who is a 
Visiting Fellow in Foreign Policy Studies at The Brookings 
Institution here in Washington, DC. Dr. Falkenrath was another 
individual who brought this issue to the Committee's attention 
with his testimony earlier this year. He has served as Deputy 
Assistant to the President for Homeland Security, and as the 
Senior Director for Policy and Special Assistant to the 
President in the Office of Homeland Security.
    And finally we will hear from Dr. Stephen Flynn, who is the 
Jeane J. Kirkpatrick Senior Fellow for National Security 
Studies at the Council on Foreign Relations. Dr. Flynn has 
testified before this Committee on a wide variety of homeland 
security issues and it is always a pleasure to welcome him 
back. I would also note that when he was in the Coast Guard he 
was stationed in Maine for 2 years, and that alone gives him 
great credibility with the Chairman at least. [Laughter.]
    Chairman Merritt, we are going to start with you, and we 
thank you for being here today.

  TESTIMONY OF HON. CAROLYN W. MERRITT,\1\ CHAIRMAN AND CHIEF 
      EXECUTIVE OFFICER, U.S. CHEMICAL SAFETY AND HAZARD 
                      INVESTIGATION BOARD

    Ms. Merritt. Thank you, Madam Chairman, Senator Lieberman 
and Members of the Committee. Thank you for the opportunity to 
testify this morning. I commend you for convening this hearing. 
Protecting the public from chemical emergencies is an important 
responsibility of the Federal Government.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Merritt appears in the Appendix 
on page 53.
---------------------------------------------------------------------------
    The U.S. Chemical Safety and Hazard Investigation Board, or 
the CSB, is an independent, nonregulatory, Federal agency 
established in 1998. We investigate major chemical accidents at 
fixed industrial facilities, determine root causes and make 
safety recommendations. The Board does not investigate 
transportation related chemical accidents, site security, or 
criminal acts.
    Madam Chairman, since the Chemical Safety Board was 
founded, we have learned something very troubling. Many 
incidents that the Chemical Safety Board has investigated 
reveal serious gaps in how well companies, emergency 
responders, government authorities and the public are prepared 
for a major chemical release. These gaps in preparedness leaves 
Americans vulnerable.
    In December of last year I traveled to India for the 20th 
anniversary of the chemical plant tragedy in Bhopal. In that 
accident on December 3, 1984, about 43 tons of toxic methyl 
isocyanate were released into the air from a U.S.-owned 
pesticide plant. About 3,000 people died within a few hours, 
and more than 200,000 people sustained permanent injuries.
    The death toll of the Bhopal accident was extraordinary, 
but the accident itself was not. The amount of toxic material 
released, 43 tons, would fit comfortably into just one rail 
car. Safety experts have concluded that the Bhopal gas release 
was caused by a combination of poor operating practice, poor 
maintenance and the deterioration of installed safety 
equipment. Overall the residents in the city of Bhopal were 
caught totally unprepared for this accident, making this 
incident particularly devastating.
    For example, many people who were told to evacuate ran 
directly into the toxic cloud and died in the streets, while 
many who stayed in their shanty homes survived. Better 
preparedness could have saved lives, was what the Bhopal police 
chief told me himself.
    We have had some major chemical releases in the United 
States, including most recently a release of about 60 tons of 
chlorine from a rail car in Graniteville, South Carolina, which 
took 10 lives in a small town.
    A similar chlorine release occurred in rural Texas last 
year where two freight trains collided, four people were killed 
by chlorine gas, and people 10 miles away reported symptoms of 
exposure.
    Fortunately, these accidents occurred in sparsely populated 
areas. A large-scale toxic gas release is quite capable of 
causing thousands of casualties if the conditions are right, 
the release is rapid and it occurs in a major city. We have 
seen it overseas. We have seen it projected in computer models, 
and we could see it in the future here in the United States as 
a result of a terrorist act or perhaps an accident.
    At many fixed industrial sites there are chemical storage 
tanks that are far larger than any rail car. When I was an 
industrial safety executive we knew of an ammonia storage tank 
in a major U.S. port that could have jeopardized nearly a 
million people in the case of total failure.
    In addition to a large storage tank, there is also a large 
number of stationary rail cars parked in chemical plants, in 
freight yards and other sites around the country.
    Overall we have an excellent record in this country of 
minimizing off-site fatalities from ordinary chemical releases 
at fixed industrial sites.
    But some of our success is also due to luck. Among the 
accident cases that we have investigated, a deficiency in 
emergency response is more often the rule than the exception.
    For example, in August 2002, a chemical repackaging 
facility near St. Louis had a release of chlorine gas from a 
faulty transfer hose connected to a rail car. The automatic 
shut-down system failed to work because it had not been 
properly maintained or tested. Emergency protective equipment 
was stored too close to the rail car and became immediately 
inaccessible. The local volunteer hazmat team was not prepared 
and it took them 3 hours to eventually shut off the leak. By 
then some 48,000 pounds of chlorine had been released. There 
were no warning sirens and firefighters had to go door to door 
in an effort to evacuate residents. Only some fortuitous 
circumstances, including the time of day and the direction of 
the wind spared local residents from what could have been a 
catastrophe.
    Probably the most telling incident occurred in Dalton, 
Georgia just a year ago. During the very first production batch 
at a local chemical company, a reactor overheated and began 
spewing toxic and flammable allyl alcohol into the air. There 
was no safety equipment in place to contain the release. The 
toxic vapor cloud formed and drifted toward a residential 
community. The 31,000 pounds of allyl alcohol at the plant was 
more than double the threshold allowed under EPA's Risk 
Management Program rules. But company managers did not even 
know that the rule existed. They did not take required steps to 
prevent or contain a release, and they did not develop a 
required emergency response plan.
    In addition, the fire department lacked equipment or 
protective clothing for a large toxic chemical release. The 
community has no hazmat unit and no warning sirens. Unprotected 
police personnel went door to door notifying residents to 
leave. The evacuation exposed responders and residents to the 
toxic gas. An overwhelmed local hospital had to decontaminate 
154 people, including 13 police officers and 3 ambulance 
personnel.
    Fortunately, all the residents and responders survived. A 
heavy rainstorm helped to scrub the toxic gas from the air that 
night, probably preventing a more serious consequence.
    We also learned that Georgia designated a single local 
emergency planning committee for the entire State, and 
jurisdictions like Whitfield county, where Dalton is located, 
are without functioning LEPCs.
    There are numerous other examples cited in my written 
testimony. But I am disturbed by what the CSB investigations 
have shown. At a minimum they point to the need for a 
comprehensive national review of emergency preparedness. Until 
we have effective safety systems and equipment at all chemical 
facilities, protected control rooms, mitigation and containment 
systems, and effective emergency preparedness in every 
community from coast to coast, our people will continue to be 
vulnerable and exposed to preventable risks.
    We all hope and pray that such a release or act of 
terrorism never occurs, but if such a disaster should happen we 
must be prepared to respond quickly and effectively to save 
every life that we can. The time for planning is now, not after 
a tragedy. And I commend you, your leadership, and this 
Committee for convening this hearing today, before a tragedy 
occurs.
    Thank you.
    Chairman Collins. Thank you for your testimony. Mr. 
Stephenson.

TESTIMONY OF JOHN B. STEPHENSON,\1\ DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Thank you, Madam Chairman and Members of 
the Committee. Thank you for this opportunity to discuss our 
work on chemical security preparedness. As the events of 
September 11 so vividly showed, a terrorist attack on the 
Nation's critical infrastructure can cause enormous damage to 
our country and to our citizens. The President identified the 
Nation's chemical facilities among the infrastructures and key 
resources that could be exploited to cause catastrophic health 
effects or mass casualties. Indeed, some have called chemical 
facilities one of the most attractive targets for terrorists 
intent on causing massive damage. We all know that the chemical 
industry is essential to our economy and to our way of life. 
Chemicals are needed to manufacture thousands of products such 
as those used in agriculture, pharmaceuticals, food processing, 
and drinking water and wastewater treatment.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Stephenson appears in the 
Appendix on page 59.
---------------------------------------------------------------------------
    But because many chemicals are inherently hazardous, the 
release of chemicals at these facilities poses serious threat. 
In the absence of Federal legislation, the private sector 
currently bears the primary responsibility for protecting 
chemical facilities from deliberate acts of terrorism. However, 
Federal, State, and local governments have for many years 
worked in partnership with the private sector to protect 
facilities from accidental chemical releases.
    Since 1990, the Environment Protection Agency has regulated 
about 15,000 facilities that produce, use, or store more than 
threshold amounts of 140 dangerous chemicals. For this reason, 
EPA initially had the lead responsibility for protecting the 
chemical sector, whereas the Department of Homeland Security is 
now the lead Federal agency.
    So why do chemical facilities pose such a serious threat? 
You have heard a lot of information today already. Many 
facilities house chemicals that, if released, could become 
airborne and drift, in some cases for several miles, to 
surrounding communities or could be stolen and used to create a 
weapon. The Department of Justice has concluded that the risk 
of an attempt to cause an industrial chemical release in the 
foreseeable future is both real and credible. And in the 
February 2002 testimony, the Director of the CIA warned of the 
potential of an attack by al Qaeda on chemical facilities.
    All of us have referred to Bhopal, and, indeed, that 
incident 20 years ago has caused legislation to be passed on 
community-right-to-know laws, etc. So it is true that Federal 
regulation and industry safety precautions taken since that 
time probably would avoid a repeat of such a huge disaster. It, 
nevertheless, vividly illustrates the potential consequences of 
a chemical release.
    A 2002 Brookings Institution report ranked an attack on 
toxic chemical plants behind only biological and atomic attacks 
in terms of possible fatalities. Despite these risks, no one 
has comprehensively assessed security across the Nation's 
chemical facilities. Media exposes showing easy access to 
chemical tanks and computer centers at U.S. chemical plants 
have raised doubts about security. While DHS and EPA have 
visited a number of facilities to discuss security, the results 
of these visits are at this point unclear.
    While DHS is still trying to define the specific number and 
type of facilities that comprise the chemical infrastructure 
sector, the 15,000 or so facilities currently under EPA's risk 
management program are a useful starting point, as each of 
these facilities house large quantities of dangerous chemicals. 
According to EPA data on worst-case accidental release 
scenarios--and you have already heard these numbers--123 
chemical facilities could each potentially put at risk more 
than 1 million people to a cloud of toxic gas; about 600 could 
each potentially threaten from 100,000 to 1 million; and about 
2,300 such facilities could each potentially threaten from 
10,000 to 100,000.
    DHS and EPA believe these estimates are overstated because, 
depending upon wind direction, safety precautions, rapidness of 
response, and other factors, the entire population in the 
vulnerability zone surrounding a plant would likely not be 
affected. However, because the scenarios estimate the effects 
of the chemical release involving the greatest amount of toxic 
chemical in a single vessel, not the entire quantity on site, 
an attack that breached multiple vessels could increase the 
consequences. Although the exact number of people at risk may 
be arguable, it is undoubtedly in the tens of millions.
    Of concern to us is that while other high-risk sectors such 
as drinking water and nuclear facilities are subject to Federal 
security requirements, no such requirements currently exist for 
chemical facilities. About 23 of the 15,000 RMP facilities are 
currently covered by Federal legislation in other sectors, such 
as the Bioterrorism Act for drinking water facilities or the 
Maritime Transportation Security Act for port facilities. But 
unlike these sectors, there are no Federal vulnerability 
assessment or safety and emergency response requirements for 
chemical facilities.
    Without specific authority to require chemical facilities 
to improve security, DHS has worked voluntarily with the 
chemical industry to provide financial assistance, share 
information about infrastructure protection, provide training 
and exercises and assess facility vulnerabilities and 
recommended security improvements at a few facilities. Chemical 
industry associations also have initiatives underway. Most 
notably, the American Chemistry Council requires its member 
facilities, which include about 1,000 of the 15,000 facilities, 
to assess vulnerabilities develop security plans, implement 
security measures, and undergo a third-party verification that 
security measures were implemented. Other industry associations 
also are imposing a number of security requirements on their 
members, but the extent of participation in these initiatives 
or their results is at this point unclear.
    DHS has a number of efforts underway, including the 
development of a chemical security sector plan, but these 
programs are still in their infancy, and the plan is not yet 
final. All of these efforts are commendable, but at the end of 
the day, we still don't know the overall extent of security 
preparedness in this critical sector.
    To ensure that security vulnerabilities at chemical 
facilities are addressed, we recommended 2 years ago in our 
2003 report that EPA and DHS develop a comprehensive national 
chemical security strategy that included a legislative proposal 
to require facilities to assess their vulnerabilities and take 
any needed corrective actions. DHS and EPA, while they 
generally agreed with our recommendations at that time, have 
yet to implement them. We plan to continue to evaluate DHS' and 
other efforts as part of our ongoing work for this Committee, 
including an analysis of existing and needed legislation.
    Madam Chairman, that concludes my statement, and I will be 
happy to answer questions as well.
    Chairman Collins. Thank you. Dr. Falkenrath.

TESTIMONY OF RICHARD A. FALKENRATH, PH.D.,\1\ VISITING FELLOW, 
       FOREIGN POLICY STUDIES, THE BROOKINGS INSTITUTION

    Mr. Falkenrath. Thank you, Madam Chairman, for the 
invitation to be here. Your opening statement and the 
statements by the other members of the Committee were so good 
and on point that I am able to shorten my introductory remarks 
substantially. I want to just make five points and then turn to 
the proposed legislative solution that I made at length in my 
written statement.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Falkenrath appears in the 
Appendix on page 75.
---------------------------------------------------------------------------
    First, I agree entirely with what Senator Voinovich had to 
say about the need to protect this information concerning our 
vulnerabilities. I am very worried about the media exposes that 
have occurred into these plants and facilities, which are 
highly dangerous, and I regret that public meetings of this 
sort are necessary. I think they are at this time, but I am 
worried about the easy accessibility of what is essentially 
terrorist targeting information concerning our most serious 
civilian vulnerability. So that is a caveat.
    Second point: On September 11, the basic strategy of al 
Qaeda was to identify a commonplace system in our midst that we 
relied upon every day and attack in such a way that they could 
achieve catastrophic secondary effects. The security in that 
system--in this case, fully fueled civilian airliners--was 
quite poor. We were complacent about it. We no longer are 
complacent about that security, but it stands to reason that al 
Qaeda is looking for other targets in our midst which, if 
attacked, could produce catastrophic civilian casualties. If 
you were to ask me what is the most likely follow-on attack to 
September 11, it would be an attack in that model, but not 
against aircraft, against something else that was like aircraft 
on September 11.
    Our most important responsibility is to prevent attacks 
before they occur, primarily by identifying the perpetrators 
and the plotters and making it impossible for them to carry 
their attack out. That is the subject of a very energetic 
effort in the Executive Branch--counterterrorism and prevention 
and intelligence. A huge amount of energy and personnel are 
dedicated to that responsibility. But there is another part of 
our strategy that is less well developed, and that is to play 
in a sense strategic defense against al Qaeda's most likely 
next tactics, to identify the sorts of targets which, if 
attacked, could cause us greatest harm and would have greatest 
likelihood of coming off successfully from the terrorist point 
of view. That is what we call critical infrastructure 
protection. It is a unique mission of the Department of 
Homeland Security. Prior to the creation of the Department of 
Homeland Security, no Federal department or agency had this 
responsibility comprehensively. It is one of the few genuinely 
new missions of DHS.
    Now, the essence of playing strategic defense is to start 
thinking like al Qaeda in reverse and think which targets, if 
attacked, would cause us the greatest harm and present the most 
likely probability of success for the terrorists, and that is 
massive casualties in the first instance.
    When you do that analysis, when you look at all of the 
different targets that could be attacked in the United States--
and there are many--and ask yourself which ones present the 
greatest possibility of mass casualties and are the least well 
secured at the present time, one target set flies off the page, 
and that is chemicals--in particular, toxic inhalation hazard 
chemicals, not necessarily explosive ones; chemicals which, if 
inhaled, are highly damaging to human health.
    This is an absolutely inescapable conclusion from the 
analysis that you have to do if you are trying to play defense 
against al Qaeda's next attack, and it is one that was very 
apparent to me in my official capacity and remains apparent to 
me now as a private citizen. So this is the appropriate focus 
for this Committee, and I am glad you are turning your 
attention to it. The chemicals that we are talking about today 
are in many cases identical to those used on the battlefields 
of World War I. They are enormously dangerous. They are 
produced in truly massive quantities, shipped and stored in 
many cases next to very dense urban populations, and present in 
my opinion the single greatest danger of a potential terrorist 
attack in our country today.
    So, fifth point, what have we done about this threat today? 
I think it is safe to say that the Federal Government has made 
itself no material reduction in the inherent vulnerability of 
this target set since September 11. It is important to separate 
between the vulnerability of chemical facilities and the 
vulnerability of chemical conveyances in the transportation 
area.
    In the conveyance area, the Executive Branch currently has 
very strong regulatory authorities and could, if it chose, take 
action to improve--to require the shippers of hazardous 
chemicals to improve the security of their conveyances. To 
date, the Executive Branch has not done so.
    On the facilities side, in my opinion the Federal 
Government does not currently have the authority to take action 
and require the owners of chemical facilities to improve the 
security of their complexes. Some have argued that the general 
duty clause of the Clean Air Act is sufficient legal authority. 
I disagree with that. And in any case, an economic intervention 
of this magnitude is the sort of thing which really deserves 
unambiguous congressional authorization. So even if legally you 
could make the claim that the general duty clause was 
sufficient, politically I think it is imprudent to do so.
    So I think the gist of what we have heard today is correct. 
There is a pressing need for a legislative solution to this 
problem and, in particular, a new regulatory regime for 
chemical security. And in my remaining time, I am going to 
outline what I think that regime should look like.
    First, a couple general principles. I believe the regime 
should be very strict, should impose very strong regulatory 
powers to the Department of Homeland Security, but that the 
regime should be risk-based and market-based, and that there is 
a way to do that.
    Second, again, I agree with Senator Voinovich. The regime 
should be focused tightly on the security of this target set 
against deliberate terrorist attack and should exclude 
extraneous issues. It should not be a back door for 
environmental regulation or safety regulation. Those issues 
should be addressed in the appropriate legislative process, but 
I would say keep them separate from the security regime. Keep 
the regime focused on improving the security and reducing the 
vulnerability of these plants.
    And the third general principle, I will just repeat what I 
said before. It should provide for the protection of the 
information related to this vulnerability. We should not, as a 
result of this legislation, if it is enacted, make terrorist 
targeting information more available as a result of it. That 
would be a bad outcome, in my judgment.
    I think the regulatory approach should have six basic 
parts. The first should be a compulsory comprehensive inventory 
maintained by the Department of Homeland Security of every 
chemical storage facility and conveyance in the country, and 
this should be updated regularly, and they should just have it. 
It should be highly detailed and should contain information 
about the physical security at every site and every 
transportation node and system in the country. It is a big 
task, but I think it is required. Such an inventory does not 
currently exist. There is no comprehensive picture of the size 
and nature and security of this complex.
    I will give a small anecdote which relates to Chairman 
Merritt's anecdote. At one point the Federal Government raised 
the alert level from yellow to orange, and at that time we 
actually sent out a list of facilities that we were worried 
about to State and local authorities and encouraged them 
voluntarily to take protective action at those facilities. It 
turns out there was a chemical plant on that list in at least 
one city in the Northeast that the local chief of police did 
not even know existed. He did not know it was there. And when 
his squad cars pulled up after they received this, it was the 
first time he knew that there was a chlorine storage tank right 
next to an urban population in a major city.
    Second major point of the legislation: I think once the 
inventory is established, the Secretary of Homeland Security 
should devise standards for the inventory, and these should be 
tiered. Not all chemical plants present the exact same risk. 
Some are far more dangerous than others. And I think he needs 
to take the inventory he has and break it up into select tiers 
and for each define very precisely the standards.
    Third, the owners of the chemical facilities need to 
certify that the standards have been met at some appropriate 
timetable.
    Fourth, the Secretary of Homeland Security needs to run a 
verification process to ensure that the certifications are 
correct.
    Fifth, if they are not correct, or if the company is in 
violation of the standards, he needs a compliance procedure 
which I think should include tough civil and criminal penalties 
for noncompliance, certainly along the lines of Sarbanes-Oxley 
criminal liability for accounting malfeasance.
    And, finally, there should be an appeal procedure so that 
companies have some recourse to the courts if they believe that 
they are being treated unfairly or in a capricious way by the 
Executive Branch. They deserve that. But the appeal procedure 
should provide for the continued protection of this information 
even as it enters the judicial process.
    This legislative package, I think, should proceed in 
concert with enhanced regulation of chemical transportation 
systems, which the Executive Branch could do right now, but 
ideally the two would be done together in an integrated 
fashion.
    Thank you very much, Madam Chairman.
    Chairman Collins. Thank you. Dr. Flynn.

 TESTIMONY OF STEPHEN E. FLYNN, PH.D.,\1\ JEANE J. KIRKPATRICK 
SENIOR FELLOW FOR NATIONAL SECURITY STUDIES, COUNCIL ON FOREIGN 
                           RELATIONS

    Mr. Flynn. Thank you so much, Madam Chairman, for the 
opportunity to come back before this Committee and your 
leadership on this critical issue. I have been most associated 
with the issues of port and container security and supply chain 
because of the economic disruption consequences associated with 
that as well as potential loss of life, given the proximity of 
populations near ports, but this is an issue that I put up 
there with the bio threat, in the top three. With the chemical 
issue there is overlap with the port security issue. Most 
chemical refineries and so forth are in seaports, and this is 
one of the critical themes as well that I think we need to be 
mindful of: It is not just the hazardous material but its 
linkage and proximity to other critical infrastructure.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Flynn appears in the Appendix on 
page 98.
---------------------------------------------------------------------------
    As Senator Corzine laid out at the outset, facilities right 
under major highways, spills that happen in ports that shut 
them down, have consequences that transcend the local loss of 
life. It can have devastating economic consequences, which 
speaks to the issue of the threat.
    I would like to talk just a minute about the threat. I 
would like also to say a few words about what I think is the 
limit of the marketplace as an approach to dealing with that 
threat, thereby, outlining the rationale for why I think it is 
so important for this Committee to move forward with a 
legislative package on this issue, and then speak to some of 
the suggestions that I have, some which parallel my colleague, 
Dr. Falkenrath.
    In terms of the threat, we are a Nation at war, and if you 
think through this as a commander-in-chief getting a briefing 
of where weapons of mass destruction might be, and the briefing 
said, well, we have 15,000 weapons of mass destruction littered 
around the United States, we have no idea how well they are 
guarded or if they are guarded at all, you would think under 
those circumstances you would say, well, we better get a handle 
on those weapons of mass destruction. But, of course, we view 
this industry as a domestic industry, and the threat, we see a 
weapon of mass destruction as often viewed as an ``over there'' 
problem. We have this issue right here within our borders. As 
Dr. Falkenrath was talking about, the example of September 11 
was not the importation of a weapon of mass destruction. It was 
converting a domestic airline into one.
    Why produce a chemical weapon, go through the very 
difficult task of smuggling it into the United States, when 
essentially there is a vast menu of prepositioned weapons in 
our population areas next to critical infrastructure? How this 
could be still off the list of priorities 3\1/2\ years since 
September 11 is quite simply extraordinary.
    I think one of the issues that we are struggling with, 
though, is, well, if it is so easy and they are so available--
and we are facing this increasingly, I think, with the homeland 
security issue across the board--well, why hasn't it happened? 
Why haven't we had another attack? And I would like to spend 
just a moment on that critical issue.
    I think one of the things that we have to do is get a real 
sense of the timeline and the challenges of the adversary of 
carrying out an attack potentially on the chemical sector. The 
reality is these more sophisticated attacks require essentially 
a terrorist organization to put down a footprint of typically a 
logistics cell, a reconnaissance cell, and ultimately an attack 
cell. It takes some time to do that. They do not start from a 
large footprint here in the United States. And though we could 
all look around and say willy-nilly there are a lot of targets 
they could attack, when you carry out an attack, you create a 
real forensics problem for yourself because you are going to 
leave a trail.
    And so if it took you 18 months or 2 years or more to put a 
cell operation together and you hit basically an easy target, 
your whole operation is likely to be exposed, as we found with 
the March 11 attack in Madrid. Within about 96 hours, the whole 
network was pretty well cleaned up. They were on trial just 
this last week.
    The second critical issue here about the time and why this 
issue should be very much--thinking this large-scale attack is 
very much with us still today is that they want to outdo the 
last attack. Now, that has been very clear that they want to do 
that, and they are willing to take the time to get it right. 
And doing it right requires expertise, it requires some 
rehearsals and good planning, dry runs and so forth. And as the 
days move by, I am more worried increasingly of that it is the 
sophisticated big attack that is staring us in the face, not 
``wipe the brow,'' maybe we somehow get them at arm's length.
    And then, again, as we look at the list of possible 
inventories, the chemical industry absolutely screams at you as 
essentially a weapon of mass destruction that is in your 
adversary's midst and you can have cascading effects.
    The problem we face here is that to date we have treated 
this, like other elements of critical infrastructure, as 
something that ultimately the private sector should take care 
of itself, that since it owns and operates this sector, 
basically it should bear the responsibility of looking at the 
most intelligent ways to proceed. I think speaking to the 
limits of the market in this area, particularly the security 
area, we have to be mindful of two critical things that I hear 
time and again from company executives.
    The first is that any security measure, just like any 
safety measure, is always about how much is enough. An 
executive has to make a decision about how much is enough vis-
a-vis what I know to be the threat as well as what the 
consequences would be if the threat is carried out and what 
investment I should make accordingly.
    Now, when we talk about issues like safety, we usually have 
empirical data openly available upon which we can make those 
decisions. But when we talk about security, the information 
about threat is a public good closely held. So to ask an 
executive in industry to establish a baseline set of security 
standards when the entry-level information about the threat 
they are out of the loop on, they have to just guess at it. And 
that is a problem.
    The second critical challenge that the industry has with 
laying out its own regime is, of course, the concern about the 
free rider. Good companies work hard to comply but they must 
worry, will everybody else play by the rules?
    The third issue is the liability issue. Given that these 
decisions are always about how much is enough, if the industry 
collectively comes together and says, well, we think this is 
about right even though we don't know much about the threat, 
but the little bit we have been clued in on, and we think the 
benchmark is here, and then go about and implement it, and then 
the attack happens, the immediate response by the public sector 
would be: You got it wrong. You were more worried about your 
profits than you were about our safety. Exhibit A, the attack 
succeeded. And, therefore, if you are a company executive, you 
have a real liability issue. You acknowledged the threat, but 
you will be accused of not having taken sufficient action to 
address it.
    Ultimately, on the issue of security, the ultimate public 
good, we need the close private-public cooperation. The public 
sector needs to be saying, yes, you have got it about right, 
industry, based on our knowledge of the threat. We will make 
sure there are not free riders, that everybody is playing by 
the rules so that you are not at a competitive disadvantage for 
doing the right thing. And, finally, we will give you Good 
Samaritan protection, if you do all that we identify as 
adequate and it does not work, since we made the public 
judgment about this, we will take the heat as a public sector 
about this public good. Then the industry can get on with it.
    But the unwillingness of the public sector to address 
critical infrastructure generally and the chemical industry 
specifically, the absence of a back and forth conversation 
between the private andpublic sectors, and the lack of a 
regulatory framework, is something that has essentially left us 
with the exposure that we are experiencing today.
    Turning now to the recommendations that I lay out in my 
written testimony, and I will try to keep this fairly brief so 
we can get through them. But the very first is we need to 
provide the necessary resources for the Department of Homeland 
Security to work with local planning emergency committees 
created under the Emergency Response and Community Right to 
Know Act, and also I recommend using the FBI district-based 
INFRAGARD program to begin to identify minimal standards for 
this industry to do several things.
    First, establish physical security, communications 
capabilities, and access control at chemical facilities based 
on this tiered system of the quantity and lethality of the 
chemicals they produce and store within a facility, as well as 
its proximity to major population centers, and its proximity to 
other critical infrastructure. We should not have to do the 
same thing for everywhere. It has got to be based around the 
risk.
    Second, conduct regular exercises to test the adequacy of 
security measures to prevent intrusions. There is no substitute 
for these exercises in getting people to really continue to 
refine and stay vested in what they are doing.
    Third, to conduct community outreach on incidence 
management with neighbors to the facilities who would be 
directly affected in the aftermath of a successful attack. 
There is a real tension here between this issue of openness on 
the one hand and worries by some officials to not give 
terrorists blueprints on the other. That really needs to be 
bored down. I err on the side of openness, and I err on the 
side of openness because I know our intelligence is so weak 
right now that we cannot predict these events. I also believe 
that the threat is so open and the awareness is so high that we 
really have to make sure that we are protecting our population 
when these things happen. And I believe that honesty and 
openness is something we need to push versus ``keep it all 
under the cone of silence'' approach.
    Next, we need to conduct outreach for incidence management, 
and then finally test the minimal intervals for emergency 
response training. We must do red team training to test 
prevention measures, but you also must have response training.
    Another area that I would recommend is that there be a 
verification regime built upon the creation of bonded, third-
party inspectors to audit compliance with these minimal 
standards at intervals appropriate to the risk posed by a 
successful attack on the chemical facility. There will never be 
enough government eyes and ears. It is not desirable to have 
exclusively government eyes and ears doing this. But we need a 
bonded process of private folks who go out and make sure 
everybody is living by the rules. Again, legitimate companies 
that make this investment do not want a regime that allows free 
riders who do not make that investment.
    Next, we need to create within the Department of Homeland 
Security a compliance office to essentially audit the auditors.
    Then we need to sponsor research and development and 
provide tax incentives which reward the adoption of less 
dangerous processes for making, handling, and storing the most 
lethal chemicals. The tendency is to think about this as gates, 
guards, and guns, and physical security alone. A lot of what 
can be done to manage an incident to make sure it does not 
result in a massive loss of life are good practices. Some of 
those require some government incentives, since it is security 
at stake, we have to find ways in which we do that.
    Next, we need to sponsor research and development on new 
technologies to mitigate the risk of chemical releases beyond 
the chemical facility. There are ways in which we can expect 
the worse and have ways to deal with that.
    We need to sponsor research and development of lower-cost, 
more user-friendly protective equipment for emergency 
responders. You, Madam Chairman, were at the TOPOFF drill. You 
saw how we put people in these moon suits that were designed 
for the most benign circumstances of working and industrial 
environment. They do not work for first responders. We must fix 
that problem.
    Two more. Next, to create a task force that recommends a 
new protocol for resolving the conflict over public outreach on 
the one hand and the sensitivity to public disclosure of 
vulnerabilities on the other, which I mentioned earlier. And, 
finally, to require risk assessments that are reviewed by the 
senior homeland security official at the State level before new 
non-industrial development is allowed in the vicinity of an 
existing chemical facility.
    A story that I point to to support this final 
recommendation is a case in southeastern Los Angeles, where the 
Los Angeles Community College District has proposed building a 
new campus that will accommodate up to 12,000 students directly 
next to one of the largest chemical facilities in the Nation. 
If the reverse case happened where a chemical facility asked to 
be located next to a large university, it would be a non-
starter. But in this instance we are crowding up against a 
facility that manufacturers and stores highly hazardous 
chemicals without thinking of the security implications, is 
crazy. We need to find a way in which we get people sensitized 
before they do things which elevate security risks.
    Thank you so much for the opportunity to make this prepared 
statement, and I look forward to answering your questions.
    Chairman Collins. Thank you. Thank you all for your 
excellent statements.
    Chairman Merritt, I was struck in your testimony about how 
India and the communities in America that you cited were 
unprepared to deal with an accidental release of hazardous 
chemicals. In your experience, do you believe that we are 
prepared as a country to deal with a deliberate attack on a 
chemical facility?
    Ms. Merritt. If you look at the events that we have 
investigated, these are really small in comparison to some of 
the events that could occur if it were a deliberate planned 
attack, as has been reported by the other witnesses this 
morning. An instantaneous release, though, still provides us 
with an opportunity, if we were prepared, to do some mitigation 
and some protection of our communities. But without any 
planning, we really do not have that capability.
    We have seen that communities, by the large proportion of 
those that we have investigated, are not ready even for a small 
release, and that they have not planned, they have not 
determined whether they would shelter in place or whether they 
would evacuate. They haven't got notification systems that 
consistently work. And even when they do, many times 
communities have changed, demographics have changed, and people 
don't know what to do. When they are told to evacuate, often 
they are not told where to go. And so large numbers of people 
are actually moving in the direction of the cloud of toxic gas.
    This is the kind of thing that needs to be determined, and 
we need to take action to try to protect our communities.
    Chairman Collins. I am struck by the fact that people who 
live in areas of the country that are susceptible to tornadoes 
know what to do when a tornado is approaching. But I don't 
think those same people, if they lived near a chemical 
facility, would have any idea what to do if there were a 
chemical release, whether it was accidental or deliberate.
    Mr. Stephenson, I am trying to get a better sense of the 
numbers involved in this issue. The EPA, as you have testified, 
has identified 123 chemical facilities located across the 
United States where more than 1 million people live in the 
vulnerable zone in the event of a worst-case chemical release. 
As you know, DHS uses a different methodology, tries to 
estimate casualties, and comes up with smaller numbers.
    Nevertheless, the EPA data provide an estimate of the 
number of Americans who are living in areas that are 
potentially vulnerable to the release of a toxic chemical.
    Can you give the Committee a rough estimate of the total 
number of Americans who live within a worst-case scenario 
radius of the 15,000 facilities that the EPA has identified?
    Mr. Stephenson. As I said in my statement, it is very 
difficult to determine because, depending upon the chemical and 
the amount of chemical at the facility and the characteristics 
of that chemical once it goes airborne, the vulnerable zone can 
be as small as a mile or as large as 20-plus miles.
    Too, many chemical facilities, as you know, are collocated 
near each other, so the zones actually overlap. So you cannot 
discount those factors. And if an actual incident occurred, 
wind direction, and other factors would determine exactly what 
part of that vulnerable zone would be affected.
    The best we can do at this point is to say it is in the 
tens of millions. There are literally millions, but you can't 
simply add up all of those 15,000-plus facilities and all those 
concentric circles and say that would be over 100 million 
people. I do not think that is a fair estimate. It is somewhere 
more than 10 million but less than 100 million, probably, but 
it is hard to say exactly.
    Chairman Collins. Thank you.
    As we have heard, the industry should be commended for 
taking steps to come up with voluntary codes to try to improve 
security. For example, the American Chemistry Council has 
developed the Responsible Care Program; the National 
Association of Chemical Distributors has the Responsible 
Distribution Process; and these programs are very good, but 
they are also voluntary.
    It seems to me that we could take three different 
approaches to the problem of chemical security. First, we could 
work with industry to encourage broader acceptance and 
compliance with voluntary codes. Second, we could rely on 
state-to-state regulation. Some States are acting in this 
regard. And, third, we could provide very clear statutory 
authority and a framework for DHS to implement a security 
program and to also include a preparedness component, which 
many of you have mentioned as essential. So we could rely on 
voluntary action; we could wait and see if the States do 
something; or we could pass Federal legislation.
    Dr. Falkenrath, starting with you--but I would like to get 
everyone's views on this--which of the three approaches do you 
recommend?
    Mr. Falkenrath. Federal legislation, no question. I think 
the voluntary measures that some chemical corporations have 
taken are good. I am glad that they are doing it. The state-to-
state approach, I think, is unlikely to work, primarily because 
the States that have the largest risk exposure also have the 
largest economic dependence on this industry, by and large. And 
I think you would get a sort of patchwork of protective regimes 
around the country that would not necessarily correspond to the 
real risk. Also, the States are not really who the American 
people think are responsible for protecting them against a 
catastrophic terrorist attack. People think the Federal 
Government is responsible. And I think that is right.
    So I am left with the need for a sort of nationwide Federal 
approach. I am also impressed with the arguments that have been 
made that the chemical industry deserves a level playing field 
and they need to know they have a common framework for the sort 
of expectations that our country places upon them and how to 
handle their inherently dangerous technology.
    Chairman Collins. Dr. Flynn.
    Mr. Flynn. As my testimony makes clear, I guess I am for 
option three, for a couple reasons, whichI will flesh out 
quickly.
    One is this industry is probably one of the most fragmented 
industries as it relates to any of our critical infrastructure. 
Wide gaps between very big responsible players and lots of very 
small players in the system. And so the voluntary approach has 
huge challenges with both industry talking to itself, because 
it really is not a unified industry of a handful of players, it 
is really a very much tiered system with small players working 
on the margins, so it makes a voluntary approach very 
problematic.
    On the State issue, the biggest competitive pressure on the 
chemical industry which has made it very difficult for them to 
embrace new security is international competition. And so a 
state-by-state approach that creates a patchwork quilt of 
requirements where some States have a lower bar and, therefore, 
are competing better than other places that are setting the bar 
too high, clearly is problematic, which speaks to a broad theme 
with homeland security overall here: Whatever we pursue here, 
we should be also pursuing overseas as well. We are all vested 
in this industry, in this case because of the loss of life and 
so forth, but we want to try to make sure the level playing 
field extends beyond just our own jurisdiction dealing with 
that pressure.
    Chairman Collins. Ms. Merritt.
    Ms. Merritt. Yes, in our investigations, we found a wide 
spectrum of behaviors, and there are companies, good companies 
that are out there going above and beyond what they are 
required to do in managing their chemical responsibilities. 
Often they are funding local emergency planning committees 
where there is no funding that is available through the 
regulations that now exist.
    But there are also companies that do just what is required 
and others who really are not doing what they are supposed to 
be doing or anything at all. And so I think it is the companies 
that will not be either safe or secure without stronger Federal 
oversight and enforcement that we are concerned about as well. 
I think Federal unity here and oversight is what is going to be 
required.
    Chairman Collins. Mr. Stephenson.
    Mr. Stephenson. As we said 2 years ago, I think the risk of 
this sector warrants heavy Federal involvement, although we do 
not think those options are necessarily mutually exclusive. For 
example, ACC, who has 1,000 of the 15,000 facilities, the 
Responsible Care Initiative is very good. So I would expect any 
Federal legislation would give them credit for that and, 
indeed, recognize that. I still think that while they do third-
party verification, some Federal oversight of that verification 
is probably warranted as well, again, because of the high risk 
of this particular sector.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman. I apologize to 
you and the witnesses. I had to go to another event. But I was 
able to read your testimony as submitted prior to the hearing.
    Chairman Merritt, I thought your testimony was very 
powerful and your description of the alarming instances of poor 
operation and maintenance of safety equipment or procedures at 
chemical facilities, leading to dangerous accidents. And I 
heard you say that some of the problems that caused and 
exacerbated the Bhopal tragedy are, in fact, replicated in our 
country today.
    I wanted to ask you how you would personally explain the 
failure of these facilities, chemical facilities, to implement 
better safety precautions.
    Ms. Merritt. Well, I think what we find in many instances 
is a lack of third-party oversight. This is one of the reasons, 
I think Federal oversight for some of these facilities is 
really necessary. Some of them do not even know what the 
regulations are. There is poor design, poor maintenance of 
equipment that they do have, and as a result, these are the 
ones we are investigating.
    There are good companies out there that are doing good 
things. But, OSHA has lists of companies and lists of 
industries that they investigate. And then there are others who 
we have found are never visited by an OSHA inspector. And I 
know that OSHA has resource restrictions, EPA has resource 
restrictions, but I think that in this particular matter, this 
is certainly something that the Committee should look at to see 
where the authority and resources are for oversight for the 
implementation of these regulations that are already on the 
books.
    Senator Lieberman. That is a very good point. The next 
question I was going to ask you I believe you answered in 
response to Senator Collins, but just to make it clear. I 
presume from what you have seen that you would say that though 
there is clearly a role for voluntary measures by the chemical 
industry to enhance security, that is not enough, that we also 
need some clear government involvement here as well.
    Ms. Merritt. Yes. What we have seen is even where there are 
regulations on the books that are managed by OSHA and other 
people, we constantly investigate sites where there has been 
little implementation of regulations on the books and little 
oversight from third parties, either at the State or the 
Federal level, that would assure that these facilities are 
safe.
    Unfortunately, those are the ones that we are 
investigating, so I do think there is a reason for a more 
unified oversight requirement for the implementation and 
management of these regulations to protect the public.
    Senator Lieberman. You are making a very important point, I 
think, which is not just to the point that some of us feel 
strongly--Senator Corzine obviously--that we need additional--
we need new legislation to protect people from the risk of 
terrorist attack and accidents at these chemical facilities, 
but there is not adequate implementation of existing law and 
regulation to protect. And I take that seriously.
    In your testimony, you say that in some cases you found 
first responders who lack adequate equipment and training to 
respond to chemical accidents. What have you found generally 
with respect to the training and equipment that first 
responders have to deal with chemical accidents? In other 
words, you site some problems of real inability, but generally 
speaking, if you are asked what is the status of preparation of 
first responders in this country to deal with chemical 
accidents or terrorist attacks, what would you say?
    Ms. Merritt. Well, I think it is a multifaceted approach 
like the group that responded in St. Louis, they had 
appropriate equipment and they had trained to respond to a 
chlorine release, but they had never trained at this facility. 
So when the event occurred, the all-volunteer hazmat team 
arrived at the site, but the equipment was at the other end of 
the site, and it took them several hours to be able to get 
together with their equipment because they had never practiced 
there.
    So there are many different things that are part of this--
fire departments who have never been to facilities to know what 
actually exists there. Those are the types of reasons that I 
think a coordinated approach needs to be enacted.
    Senator Lieberman. You may know that Senator Collins and I 
were successful in amending the budget resolution in the Senate 
to restore a considerable amount of funding, I guess about $550 
million, for the coming year for first responders, and 
obviously we have to make sure the money is well spent. But you 
point to a very urgent need which will not be met unless we 
give the first responders money. Then once we do that, we have 
to help them use it for that purpose. I thank you.
    Mr. Falkenrath, I know that you have said that security 
legislation should not be a back door for safety regulation, 
and in this, as in so many areas, it is, I suppose, what is in 
the eye of the beholder, but also where you draw the line. I 
agree that we should not use this concern that we have about 
security, homeland security, to be a back door for a lot of 
environmental, uniquely environmental legislation or 
regulation; but, on the other hand, it just seems to me it--
isn't it common sense to encourage the chemical industry to do 
the kinds of things that will enable them to essentially reduce 
the attractiveness of their facilities as a target for 
terrorism? In other words, if they can do something that they 
need to do in their business in a way that is less potentially 
catastrophic if an attack occurs, isn't that worth trying to 
do?
    Mr. Falkenrath. Yes, Senator, I think it is. But it is a 
question of regulatory design. And as I lay out in my written 
statement, I think that there should be a system of tiers of 
chemical facilities based on the risk they present of a 
deliberate terrorist attack. And if the facility owners decide 
on their own that they want to modify their business practices 
to get into a lower tier which would have a less onerous 
security requirement, they should have the opportunity to do 
that and apply for reclassification.
    So that is what I mean by a market-based approach to 
changing business practices and adopting less dangerous, less 
unsafe business practices.
    Senator Lieberman. And the tier you are in would be 
determined by how serious the consequences of an attack would 
be.
    Mr. Falkenrath. It would be several different things: How 
serious the consequences would be, what chemicals are present, 
what is the toxicity of the chemicals, what is their proximity 
to population density. Those are the things that you would 
expect the Department to design and to do so sensibly based on 
analytically sound criteria.
    Senator Lieberman. So I guess my question is--and this is 
all at a general level, so we have to see the details--whether 
this is an area where the market is sufficient to encourage 
people in the industry to take the steps necessary to reduce 
the risk, without us either creating greater incentives or 
mandating something of that kind to occur.
    Mr. Falkenrath. At the moment it appears to me, Senator, it 
is not sufficient, by and large.
    Senator Lieberman. Yes.
    Mr. Falkenrath. But I think an appropriately designed 
regulatory regime could create those incentives so that they 
would then voluntarily, if it made sense for them, decide to 
adopt safer business practices. If it is switching from gaseous 
chlorine to a salt form for water----
    Senator Lieberman. That is the perfect example.
    Mr. Falkenrath. But not to give the government the power to 
order them to do that, but to set up an incentive structure 
that allowed them, on the basis of their own business model, to 
make the decisions if it made sense.
    Senator Lieberman. Mr. Flynn, do you have an opinion on 
that one? I should say ``Dr. Flynn.''
    Mr. Flynn. Thank you, Senator. It is an honor to be with 
you here.
    Senator Lieberman. Nice to be with you.
    Mr. Flynn. On one part, safety versus security, a big 
message that I try to push on security is the way you keep 
people vested in it is if it serves another purpose. So if many 
of the things that you do for safety will help for security--
and so you don't want to get into a splitting hairs problem 
here.
    Senator Lieberman. Right.
    Mr. Flynn. What we are really, I think, dancing around is a 
notion of a 1960's-style OSHA Federal oversight with its well 
deserved reputation of nitpicking regulation versus some of the 
things that Dr. Falkenrath is laying out as a regulatory 
framework but where we find incentive systems to get people to 
want to get to the desired behavior. I am an advocate of this 
latter approach, but it has to be a framework that is required. 
There has to be a compliance--an audit system, a compliance 
system with sanctions to level the playing field so folks will 
start to adopt the requirements.
    It is clear, 3\1/2\ years out, virtually nothing is 
happening besides trying to put together best practices and 
model codes, and so this is something we need to deal with with 
a lot greater urgency.
    Senator Lieberman. I agree with what you have said and also 
the sense of urgency. The record shows, as all of you have 
said, that not enough is being done and that there is a clear 
and present danger, and we have to do whatever we can in this 
session of Congress to drive much more comprehensive steps to 
protect people from the consequences of attack or accident.
    Thanks, Madam Chairman. My time is up.
    Chairman Collins. Thank you. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman. I think this 
was an exceptionally productive hearing, and I commend you for 
doing that. It was rather a chilling experience to listen to 
these people with the experience that you bring to the table 
and just sound the alarm in the way that you have.
    I was the principal driver on the right-to-know law in 
1986, and I got that inspiration from the State of New Jersey's 
own right-to-know law. And we found one thing: That despite the 
fact that there were no penalties really, because what was 
asked was reporting, and the companies, in their desire to be 
good citizens, had substantial reductions in toxic emissions, 
some as much as 90 percent. And that was a real lesson for me 
to see that given an impetus--and I am not one who believes 
only in the carrot. Sometimes a stick is necessary. But we are 
now in a situation without any harmful design by anybody, 
unintentionally maybe, zoning requirements, but we are where we 
are. And as has been said, the materials that are used are an 
integral part of the way we structure our living, not just 
economically but culturally, etc.
    So when we look at something like the threat posed by this 
South Kearny location, as we say, as many as 12 million people 
could be harmed, what do we do about that? Has anybody got any 
suggestions? Should the government come in and put up high 
walls? You cannot do it. What could be proposed as a way to 
deal with problems, potential problems of this magnitude? Any 
volunteers?
    [No response.]
    OK. Well, going on to the next question. [Laughter.]
    Shortly after the September 11 attack the Blue Plains 
Sewage Treatment Plant in D.C. switched from the use of 
explosive chlorine gas to harmless bleach. Now, the use of 
safer substitutes is also one of the provisions of Senator 
Corzine's bill. Did the GAO assess this option?
    Mr. Stephenson. No. There is a lot of popular support for 
inherently safer chemicals, but we did not specifically assess 
it. I was actually at Blue Plains and saw the results of a 
chlorine gas leak. It destroyed a 100-year-old oak tree, so the 
devastation that it could cause is very real. But there are 
obviously types of chemical processes and chemicals that do not 
lend themselves to inherently safer alternatives without 
extreme investments in production costs, etc.
    I think the vulnerability assessment and risk mitigation 
and rapid response planning approach offer the most promise--I 
should point out since nobody answered your former question, 
that the Community Right-to-Know Act actually went a long way 
toward helping citizens prepare by knowing what chemical 
facilities and what hazardous facilities were in their area, 
and what they should do in the event of a chemical release.
    Senator Lautenberg. That was induced by a fire that took 
place in the city of Elizabeth, and when the firemen responded 
the coats that they were wearing, the protective gear they 
thought, virtually melted under the chemical reaction that was 
caused by this fire, and said, wow, there is something terrible 
out there. So we worked with the firemen and fire departments, 
and we fashioned the bill, and again, it was very productive in 
reducing the toxic emissions.
    Where can we go to remind chemical facilities to switch to 
safer chemicals when they are available? Again, trying to keep 
government from intruding too much in the business sense, but 
what is our obligation to say to companies that you ought to be 
looking at safer materials, can you accomplish the same 
objective, same pricing, etc.?
    Mr. Flynn. Senator, I think with the fact that we are 
dealing with a core element of our security, then there is 
certainly legitimately a call on some Federal resources to help 
with this problem. I think there is an element of RMP that the 
government can sponsor and support so that we can vet what 
really are productive practices and get that out and about, and 
then clearly you can look at tax revenue kinds of enhancements, 
adopting tax credits, migrating towards one sort of 
technologies versus another, that you are confident will in 
fact assure greater safety and security for the people.
    There is almost a classic case study with a company, like 
with DuPont making a decision almost 50 years ago that the way 
they will maintain their competitive advantage will be that 
they will be the safest chemical company on the planet. What 
they discovered were enormous savings from reducing the cost of 
the amount of goods that they stored, the decline in accidents, 
and employee workmen's compensation, so they ended up adopting 
incredibly efficient practices by basically making safety their 
focus.
    There is enough overlap here in many instances where 
security practices work where it is not necessarily that it 
will put you at a competitive disadvantage. What we have in 
this industry is a lot of marginal players who are operating on 
the fringe of modern industrial practices, and you are probably 
going to have to make some hard political decisions about 
whether or not they can continue to operate if they are dealing 
with very dangerous substances. That is where it will probably 
get politically very tricky is when you get down to these very 
small companies who really cannot survive but by breaking the 
rules, and then you are talking about employment and other 
kinds of issues here. But they are, again, they are a sitting 
weapon of mass destruction.
    That is really what we have to see in a post-September 11 
world. That is the reality and we have to figure out how we 
muster resources and devise incentives to get that number under 
control, just as we are trying to run around over in Russia and 
elsewhere to try to get this under control. We have our own 
house to get in order.
    Senator Lautenberg. Yes. You gave us a striking example of 
how to view these things when you described 15,000--let us call 
them weapons of major consequence--sitting around the country. 
It is a shocking revelation. Nevertheless it is true. And we 
have not seen it--as bad as the battleground results have been, 
when one attack on September 11 had a far higher casualty rate 
than anything we have seen, with thousands and the hundreds of 
thousands of people employed in the war theater. So we have to 
pay attention to these things.
    I hope, Dr. Falkenrath, that we can stimulate some activity 
with EPA. They had the authority to regulate a lot of these 
chemicals and it did not happen. The White House did not push 
it, as you said, and we have to find a way to get these things 
to a more urgent platform so that things do happen.
    Thank you very much, Madam Chairman. Thank you all.
    Chairman Collins. Thank you. Senator Levin.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Madam Chairman.
    I want to just go into the incentives question a little 
more. If I missed this, forgive me. One incentive is a positive 
tax incentive of some kind, which I assume already exists, to 
put in safety equipment or safety measures. These deductions 
already exist. Are you suggesting there be tax credits instead 
of deductions? Is that a tax incentive which would be greater 
to install the safety equipment?
    Mr. Falkenrath. I guess I am probably not in really a 
position to drill down too far on that, Senator, but obviously 
we are trying to create a marketing incentive--recognize 
security is a public good--to adopt practices that mitigate the 
consequence if something happens at the plant. So I would say 
ideally if you want to stimulate it quicker, it is a tax credit 
for doing A, B, or C. Whether you talk about tax deductions or 
not, I guess will depend on the facility whether that is an 
incentive enough for them to move forward.
    Senator Levin. Dr. Falkenrath, the question of the mandates 
which need to be there in order for the market to work, that is 
an unusual balance just to state it that way. You need the 
mandate, you either have to install security equipment or if 
you do not install security equipment, then what?
    Mr. Falkenrath. Then you will be subject to civil or 
criminal penalties, and effectively be put out of business or 
thrown in jail.
    Senator Levin. So is that what you call market based? 
[Laughter.]
    Mr. Falkenrath. Yes. [Laughter.]
    Chairman Collins. A powerful market incentive, jail.
    Mr. Falkenrath. This is an area where I disagree with 
Steve. I do not think there should be incentives to do this. 
What we have here is an industry with a security externality, 
that they are not internalizing, and the role of the government 
should be to force them to internalize the external cost of 
securing their inherently dangerous systems, and that is what 
we should be doing.
    I would prefer to do that in a standard setting way that 
recognized differentials in risk and also had graduated 
security requirements as you moved up the ladder of risk, that 
forced companies to make their own cost benefit calculations of 
either complying with the standard or modifying their business 
practices in such a way that got them into a lower tier with 
less onerous standards. Failure to comply at any level in the 
schedule, you would have a schedule of civil and criminal 
penalties.
    Senator Levin. I think it is different from what we usually 
call market-based incentives around here.
    Mr. Falkenrath. The reason I call it market-based is the 
companies have the opportunity to decide. If they wish to 
comply with the Secretary of Homeland Security's standard for 
their level or risk, or modify their business practices in such 
a way that lowered the level of how onerous the security 
requirements were. That is why I think of it as market-based.
    Senator Levin. Well, comply or modify is one and the same 
thing because compliance means modification.
    Mr. Falkenrath. To put it in concrete terms, and make it 
simple, if it was a choice between spending $10 million 
installing a new access control system and background checks 
and fences and the rest, or $8 million changing your business 
model to a less dangerous form of chlorine, then the board 
would have the choice to make the decision.
    Senator Levin. But the government would mandate that you 
have got two choices.
    Mr. Falkenrath. Right. It would follow from the schedule, 
the sort of tiers of risk.
    Senator Levin. Thank you.
    The only other question I have has to do with the 
difference between the situation where you are prioritizing 
risks based on probability and severity of an incident where 
you are dealing not with accident, where I think you can more 
traditionally look at likelihood, probabilities, and where you 
are dealing with an intentional terrorist act and the 
difference between assessing probabilities and risk under those 
circumstances and the kind of models that are appropriate when 
you are dealing with a coordinated intentional terrorist 
attack, seems to me very different from the usual models which 
we look at. I do not know if anyone wants to comment--maybe you 
already have commented on it, in which case that would be fine. 
We will just rely on my staff and on the record. But if you 
have not commented on that difference and would like to, I 
could just start with anyone here.
    Mr. Falkenrath. Senator, I completely agree that you cannot 
apply normal cost benefit calculations or risk management 
calculations to deliberate actions by a strategic thinking 
adversary. Their actions and their tactics are not 
statistically patterned like accidents are or hurricanes are or 
the rest.
    So the assumption you have to make is they are trying to 
find the ways to hurt us the most, and our job, it seems to me, 
is to figure that out before they do and take action in those 
areas.
    Mr. Flynn. If I might add, Senator, I mean this is the 
biggest concern I have overall with the approach we have right 
now, which is to say we have a threat-based risk management 
approach. Fundamentally, threat-based requires the underlying 
intelligence to tell you where, when and how they are going to 
act, and then you raise your protective measures. We do not 
have that intelligence. We are not going to have it for 
probably 10 to 15 years. We know how badly things are broken on 
the intelligence side.
    So that forces us to have to consider what would be, if we 
were the terrorists, the most likely targets? And so I add to 
it not just generating mass casualties but also proximity to 
critical infrastructure. And typically in ports you get all of 
the above. But basically we are talking about would we bring 
down not just loss of life or bring down fundamental systems 
that run our way of life?
    Final point I would make here, I am very concerned that in 
fact one of the outcomes of what is happening in Iraq is it is 
becoming a proving ground for learning how to do critical 
infrastructure sabotage. In Afghanistan these folks learned how 
to be warriors. Afghanistan was virtually in the stone age so 
there was not much infrastructure to attack, but now we know 
the evolution of that tactic is to go after power grids, go 
after pipelines, go after transportation assets and so forth. 
That skill set is being honed. Even if things turn out well, 
these folks return back to their original countries, we will 
have problems here.
    So infrastructure best be looked at. We need requirements 
that really treat this with much more urgency than we have been 
dealing with it to date.
    Ms. Merritt. I would just like to add that when all of that 
fails because you have a thinking, planning opponent, the last 
resort of protection for your public is preparedness, to be 
able to know what to do, shelter in place, know how to 
evacuate, and have emergency responders who are trained and 
properly equipped. And working together with all the resources 
of the region in order to address something that would be worst 
case is the last measure of protection for the public to 
survive such an event. Just for the public to know what they 
should do in order to protect themselves like you do in a 
tornado or a hurricane. What are the steps that are taken?
    What we find is people just do not even know that. They do 
not know and understand what the difference between shelter in 
place or evacuation is, or what any of that means. That is a 
basic fundamental need that we have in this country that I 
think is a last line of defense in protecting our population 
from the catastrophic impact of a terrorist attack where they 
intend to kill millions.
    Mr. Stephenson. Civil preparedness, as she is mentioning, 
is a big deterrent. You want to reduce the attractiveness of 
these targets, and one way to do that is by being prepared.
    A big incentive to the chemical industry is not to under go 
Federal regulation, so what Dr. Falkenrath is talking about, 
incentives to reducing the amount of Federal regulation for 
plants that are less risky, therefore you get into inherently 
safer technologies and chemicals and so forth. I have to tell 
you that any of these 15,000 RMP facilities celebrate when they 
reduce the level of chemicals that they need to store on site 
and, thus get some off the RMP list, and they therefore no 
longer have to comply with that requirement. That is a huge 
incentive that is monetary for their business.
    Now, chemical manufacturing plants often cannot do that, 
but lots of other facilities that store and use chemicals can 
in fact do that.
    Senator Levin. Thank you. Thank you, Madam Chairman.
    Chairman Collins. I want to thank all of our witnesses for 
their excellent testimony today. I think this was a very good 
hearing to start off our series as we examine what is a very 
complex issue. I am convinced that chemical security has not 
received the attention that it deserves, given the 
vulnerabilities involved, and with your help I am hopeful that 
this Committee can craft an appropriate response.
    I am inclined to believe, based on the testimony today, 
that we do need strong Federal legislation in this area, but we 
also need legislation that does not put an unreasonable burden 
on the chemical industry. So we need to strike the right 
balance. I am convinced that working together, and with the 
benefit of your expertise, we can achieve that goal.
    I do want to also thank the staff for their work on this 
issue. I particularly want to thank a fellow that we have had 
from the University of Maine for the past month. His name is 
Wayne Honeycutt. He is a scientist with the Agricultural Lab at 
the University of Maine. He is completing his month this week, 
and will be returning to Maine, but we thank you very much, 
Wayne, for your contributions to this effort.
    The hearing record will remain open for 15 days for 
additional materials for the record, and the Committee hearing 
is now adjourned. I thank my colleagues.
    [Whereupon, at 11:57 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                  PREPARED STATEMENT OF SENATOR PRYOR

    I thank Senators Collins and Lieberman for holding this hearing to 
address the vulnerabilities of the Nation's chemical industry. All of 
today's witnesses will testify to the need to better protect the 
production, transportation, and storage of the chemical products that 
contribute to our high standard of living. It is a dreadful possibility 
that the very chemicals that we use to save lives and promote health, 
could be used by our enemies against us in a potentially catastrophic 
attack.
    Therefore, it is incumbent upon this Committee to work with the 
Department of Homeland Security and industry, to promote stronger 
protection against, and greater preparedness for, a potential terrorist 
attack on our chemical facilities. National standards for security of 
chemical facilities need to be established. Vulnerability assessments 
of facilities need to be conducted. Security and response plans need to 
be implemented and monitored.
    I look forward to having the opportunity to hear and question the 
panels about these steps that must be undertaken to secure our chemical 
industry.

[GRAPHIC] [TIFF OMITTED] T1435.001

[GRAPHIC] [TIFF OMITTED] T1435.002

[GRAPHIC] [TIFF OMITTED] T1435.003

[GRAPHIC] [TIFF OMITTED] T1435.004

[GRAPHIC] [TIFF OMITTED] T1435.005

[GRAPHIC] [TIFF OMITTED] T1435.006

[GRAPHIC] [TIFF OMITTED] T1435.007

[GRAPHIC] [TIFF OMITTED] T1435.008

[GRAPHIC] [TIFF OMITTED] T1435.009

[GRAPHIC] [TIFF OMITTED] T1435.010

[GRAPHIC] [TIFF OMITTED] T1435.011

[GRAPHIC] [TIFF OMITTED] T1435.012

[GRAPHIC] [TIFF OMITTED] T1435.013

[GRAPHIC] [TIFF OMITTED] T1435.014

[GRAPHIC] [TIFF OMITTED] T1435.015

[GRAPHIC] [TIFF OMITTED] T1435.016

[GRAPHIC] [TIFF OMITTED] T1435.017

[GRAPHIC] [TIFF OMITTED] T1435.018

[GRAPHIC] [TIFF OMITTED] T1435.019

[GRAPHIC] [TIFF OMITTED] T1435.020

[GRAPHIC] [TIFF OMITTED] T1435.021

[GRAPHIC] [TIFF OMITTED] T1435.022

[GRAPHIC] [TIFF OMITTED] T1435.023

[GRAPHIC] [TIFF OMITTED] T1435.024

[GRAPHIC] [TIFF OMITTED] T1435.025

[GRAPHIC] [TIFF OMITTED] T1435.026

[GRAPHIC] [TIFF OMITTED] T1435.027

[GRAPHIC] [TIFF OMITTED] T1435.028

[GRAPHIC] [TIFF OMITTED] T1435.029

[GRAPHIC] [TIFF OMITTED] T1435.030

[GRAPHIC] [TIFF OMITTED] T1435.031

[GRAPHIC] [TIFF OMITTED] T1435.032

[GRAPHIC] [TIFF OMITTED] T1435.033

[GRAPHIC] [TIFF OMITTED] T1435.034

[GRAPHIC] [TIFF OMITTED] T1435.035

[GRAPHIC] [TIFF OMITTED] T1435.036

[GRAPHIC] [TIFF OMITTED] T1435.037

[GRAPHIC] [TIFF OMITTED] T1435.038

[GRAPHIC] [TIFF OMITTED] T1435.039

[GRAPHIC] [TIFF OMITTED] T1435.040

[GRAPHIC] [TIFF OMITTED] T1435.041

[GRAPHIC] [TIFF OMITTED] T1435.042

[GRAPHIC] [TIFF OMITTED] T1435.043

[GRAPHIC] [TIFF OMITTED] T1435.044

[GRAPHIC] [TIFF OMITTED] T1435.045

[GRAPHIC] [TIFF OMITTED] T1435.046

[GRAPHIC] [TIFF OMITTED] T1435.047

[GRAPHIC] [TIFF OMITTED] T1435.048

[GRAPHIC] [TIFF OMITTED] T1435.049

[GRAPHIC] [TIFF OMITTED] T1435.050

[GRAPHIC] [TIFF OMITTED] T1435.051

[GRAPHIC] [TIFF OMITTED] T1435.052

[GRAPHIC] [TIFF OMITTED] T1435.053

[GRAPHIC] [TIFF OMITTED] T1435.054

[GRAPHIC] [TIFF OMITTED] T1435.055

[GRAPHIC] [TIFF OMITTED] T1435.056

[GRAPHIC] [TIFF OMITTED] T1435.057

[GRAPHIC] [TIFF OMITTED] T1435.058

[GRAPHIC] [TIFF OMITTED] T1435.059

[GRAPHIC] [TIFF OMITTED] T1435.060

[GRAPHIC] [TIFF OMITTED] T1435.061

[GRAPHIC] [TIFF OMITTED] T1435.062

[GRAPHIC] [TIFF OMITTED] T1435.063

[GRAPHIC] [TIFF OMITTED] T1435.064

[GRAPHIC] [TIFF OMITTED] T1435.065

[GRAPHIC] [TIFF OMITTED] T1435.066

[GRAPHIC] [TIFF OMITTED] T1435.067

[GRAPHIC] [TIFF OMITTED] T1435.068

[GRAPHIC] [TIFF OMITTED] T1435.069

[GRAPHIC] [TIFF OMITTED] T1435.070

[GRAPHIC] [TIFF OMITTED] T1435.071

[GRAPHIC] [TIFF OMITTED] T1435.072

[GRAPHIC] [TIFF OMITTED] T1435.073

                                 <all>

</pre></body></html>
